HHS/OIG, Audit - "Review of the Qualified Pension Plan at Empire Blue
Cross Blue Shield for the Period January 1, 1999, Through December 31, 2006,"
(A-07-07-00253)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Qualified Pension
Plan at Empire Blue Cross Blue Shield for the Period January 1, 1999, Through
December 31, 2006," (A-07-07-00253)
April 10, 2008
Complete Text of Report is available in PDF format (767 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Empire Blue Cross Blue Shield (Empire), a CMS contractor, properly implemented
our prior audit recommendation
regarding an earlier review of its Medicare segment pension assets; however, it
did not always comply with Federal requirements and the Medicare contracts
pension segmentation requirements while updating the Medicare segment pension
assets from January 1, 1999, through December 31, 2006.  As a result, Empire
overstated the Medicare segment pension assets by $131,494.
We recommended that Empire decrease its Medicare segment
pension assets as of December 31, 2006, by $131,494.  Empires
Medicare contract was transferred to National Government Systems (NGS) effective
January 1, 2007.  NGS agreed with our recommendation.